NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
FEB 6 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
ARTHUR LOPEZ,

U.S. COURT OF APPEALS

No. 18-55520

Plaintiff-Appellant,

D.C. No. 8:17-cv-00297-VBFMRW

v.
COSTA MESA POLICE DEPARTMENT;
et al.,

MEMORANDUM*

Defendants-Appellees.
Appeal from the United States District Court
for the Central District of California
Valerie Baker Fairbank, District Judge, Presiding
Submitted February 4, 2020**
Before:

FERNANDEZ, SILVERMAN, and TALLMAN, Circuit Judges.

Arthur Lopez appeals pro se from the district court's summary judgment in
his 42 U.S.C. § 1983 action alleging violations of the Fourth and Fourteenth
Amendments arising from a traffic stop. We have jurisdiction under 28 U.S.C.
§ 1291. We review de novo. Blankenhorn v. City of Orange, 485 F.3d 463, 470

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

(9th Cir. 2007). We affirm.
The district court properly granted summary judgment on Lopez's Fourth
Amendment claim for defendants because Lopez failed to raise a genuine dispute
of material fact as to whether defendants lacked reasonable suspicion to stop his
vehicle or were unjustified in impounding the vehicle or conducting an inventory.
See Heien v. North Carolina, 574 U.S. 54, 60 (2014) (holding that to conduct a
traffic stop "officers need only reasonable suspicion—that is, a particularized and
objective basis for suspecting the particular person stopped of breaking the law"
(internal quotation marks omitted)); United States v. Torres, 828 F.3d 1113, 1120
(9th Cir. 2016) ("Once a vehicle has been legally impounded, the police may
conduct an inventory search without a warrant."); Miranda v. City of Cornelius,
429 F.3d 858, 865 (9th Cir. 2005) ("The violation of a traffic regulation justifies
impoundment of a vehicle if the driver is unable to remove the vehicle from a
public location without continuing its illegal operation.").
The district court properly granted summary judgment on Lopez's
Fourteenth Amendment claim for defendants because Lopez failed to raise a
genuine dispute of material fact as to whether defendants acted with discriminatory
purpose. See Serrano v. Francis, 345 F.3d 1071, 1082 (9th Cir. 2003) ("To avoid
summary judgment, [the nonmoving party] 'must produce evidence sufficient to
permit a reasonable trier of fact to find by a preponderance of the evidence that the

2

18-55520

We do not consider matters not specifically and distinctly raised and argued
in the opening brief, or arguments and allegations raised for the first time on
appeal. See Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009).
Lopez's motion for judicial notice is denied.
AFFIRMED.

18-55520

